No. 20IN THE

Supreme Court of the United States
THOMAS WOOD, INDIVIDUALLY AND
AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF PHILIP TALMADGE WOOD,
Petitioner,
v.
THE BOEING CO.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
I certify, as required by U.S. Supreme Court Rule 29.5(b), that on July 27, 2020, an
electronic copy of the petitioners’ reply brief was served on all parties required to be served,
and that counsel for every party below consented to electronic service in accordance with
the this Court’s Order dated April 15, 2020.

Signed on July 27, 2020

________________________________
Evan A. Young
Counsel of Record

1

ERIC BRIAN WOLFF
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101
206.359.3779
Counsel for Respondent The Boeing Company
RICHARD A. WALKER
KMA ZUCKERT LLC
200 West Madison Street
16th Floor
Chicago, IL 60606
312.345.3051
Counsel for Malaysia Airlines Berhad, doing business as Malaysia Airlines, Malaysian
Airlines System Berhad, Administrator Appointed, doing business as Malaysia Airlines,
Allianz Global Corporate and Specialty, and Henning Haagen, in his capacity as Global
Head of Aviation for Allianz Global Corporate and Specialty
FLOYD WISNER
ALEXANDRA M. WISNER
WISNER LAW FIRM, P.C.
514 W. State Street, Suite 200
Geneva, IL 60134
630.262.9434
Counsel for Jianjun Bao, Yuanjuan Bao, Qinping Xu, Xia Wu, Guangzhen Ding, Rongjie
Dong, Zhengquian Dong, Zhengquian Dong, Zheng Wang, He Xiong, Songrong Duan, Yi
Yao, Qiang Yao, Borong Yao, Lian Hua Hu, Jiangtian Lou, Jianghao Lou, Jiangyue Lou,
Morojahan Simanjuntak, Emma Tianwen Li, Yvonne Tianyun Li, Danica Weeks, and
Kerry Richards
ERIC J. RHINE
SPAGNOLETTI & Co.
401 Louisiana Street, 8th Floor
Houston, TX 77002
713.659.0257
Counsel for Amirathan Arupilai, Subramanian Gurusamy, Sri Devi Kanan,
Individually and on behalf of the Estate of Descendent Puspanathan Subramanian, minor
H. Puspanathan, and minor T. Puspanathan

2

STEPHEN F. ROSENTHAL
PODHURST ORSECK, P.A.
Suntrust International Center
One S.E. 3rd Avenue, Suite 2300
Miami, FL 33131
305.358.2800
Counsel for Yang Chen, Lei Feng, Jingbo Gao, Thomas C. Gaspard, Junxiu Han, Xiufang
Hu, Yan Huang, Yiliang Jia, Sanved Kolekar, Huiyun Li, Li Li, Qingshan Liang, Shoujie
Pang, Narendran Santhanam, Pralhad Shirath, Yang Tian, Guanyi Wang, Le Wang,
Yinglei Wang, Linna Xiao, Bei Yuan, Pu Zhang, Yongli Zhang, and Shengnan Zhou
MARY F. SCHIAVO
MOTLEY RICE LLC
28 Bridgeside Boulevard
Mt. Pleasant, SC 29464
843.216.9138
Counsel for Elizabeth Smith, Jianguo Zhang, Huatian Hu, Jin Liu, Luyue Zhang, Zhuo
Liu, H. L., a minor by and through his Guardian Ad Litem Zhuo Liu, Individually, and
as Representative of the Estate of Yan Zhang, Yan Meng, Min Huang, Zhaojun Zhang,
Shusen Yan, Xiyun Tian, Man Zhang, Jia Zhang, Shu Zhang, Dacai Gan, Yurong Lin,
Q. G., a minor by and through her Guardian Ad Litem as Representative of the Estate of
Tao Gan, Mingfei Ma, Yiming Li, Zhaoxia Sheng, Yongfu Gao, Guohui Wang, Peng Li,
Y. L., a minor by and through her Guardian Ad Litem Yongfu Gao, as Representative of
the Estate of Zhi Li, Xinmin Lin, Yan Lin, Teng Ma, Xiushen Ma, Guifen Song, Xiurong
Yang, Zhu Mao, M. Y. L., a minor, by and through her Guardian Ad Litem Zhu Mao as
Representative of the Estate of Tugui Mao, Fan Yang, Qingyuan Yang, Yupei Feng, Zan
Wang, Liping Wang, Xiuqin Yang, Mengyao Zhou, Xueliang Zhou, Xiuying Huang,
Kailai Zhou, Shufang Li, Yalai Zhou, Shengyuan Zhao, Shiji Zhang, Quilan Li, Z. Z., a
minor, by and through her Guardian Ad Litem Shenyuan Zhao as Representative of the
Estate of Shaohua Zhang, Lijun Guo, Fengxin Shi, Xingxui Pi, Y. S., a minor, by and
through his Guardian Ad Litem Lijun Guo and as Representative of the Estate of Xianwen
Shi, Jian Jiao, Gengxin Yang, Shuying Han, Jinshi Feng, Chengying Liu, Jiehao Feng,
Chao Tian, Jinqi Tian, Lamei Li, Shuqin Li, Yuehua Li, Ruilin Bo, Limang Cui, T. G.,
a minor, by and through his Guardian Ad Litem as Representative of the Estate of
Fuxiang Gan, Mingsong Gan, Yuzhen Gan, Qi Li, Shuping Li, Xuezheng Li, Yinsui Li,
Xueyan Ma, Min Wan, Kefei Wang, Yuzhi Xing, Gang Yan, Nali Yu, Lixia Zhang,
Yanmin Zhang, Gregory D. Keith, As Special Administrator of the Spouses, Next of Kin,
Other Statutory Beneficiaries, and the Estates of the MH370 Passengers

3

The following email addresses have been served electronically:
evan.young@bakerbotts.com
caitlyn.hubbard@kellyhart.com
marianne.auld@kellyhart.com
srosenthal@podhurst.com
faw@wisner-law.com
awisner@wisner-law.com
mschiavo@motleyrice.com
erhine@spaglaw.com
rwalker@kmazuckert.com
ewolff@perkinscoie.com

4

